                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-03604-198



                Healthcare Inspection 


        Quality of Care and Staffing 

                 Concerns 

         Salem VA Medical Center 

              Salem, Virginia 





June 23, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to quality of care and staffing concerns at the Salem VA Medical
Center (facility), Salem, VA.

We substantiated that post-operative complications for orthopedic and podiatry surgery
cases increased in fiscal year 2013. The facility has implemented corrective actions
and is monitoring for effectiveness.

We did not substantiate that bowel perforations occurred during surgery requiring
ostomies; that a number of outpatients having lung biopsies required chest tube
placements and admissions; that patients were being told that they had a spot on their
lung and months later were told they had Stage IV lung cancer; or that a dying patient
was inappropriately transferred from the emergency department to a medical/surgical
unit.

We also did not substantiate that the administrative officer of the day was admitting
patients to units that could not properly care for them resulting in those patients being
transferred within minutes of arrival. However, we did identify inefficiencies in the
admission process and inter-unit transfer patterns.

We substantiated the subject unit had been staffed for 20 patients. In 2013, the unit’s
bed capacity increased from 20 to 24 patients. Staffing initially remained the same
while the facility monitored the average daily census to determine the unit’s resource
needs. Additional nursing staff have been hired. We did not substantiate that the unit
routinely received up to 15 admissions during an 8-hour shift.

We recommended that the Facility Director continue to monitor and address increases
in post-operative infection rates and take appropriate corrective actions when indicated
and evaluate the admission process from the emergency department, monitor inter-unit
transfer patterns, and take corrective actions as needed.

Comments The Veterans Integrated Service Network and System Directors
concurred with the report. (See Appendixes A and B, pages 8–10, for the Directors’
comments.) We will follow up on the planned actions until they are completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




VA Office of Inspector General                                                                      i
                                  Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA


                                                    Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection in response to quality of care and staffing concerns at the Salem VA
Medical Center (facility), Salem, VA. The purpose of the review was to determine
whether the allegations had merit.

                                               Background 

The facility provides a broad range of inpatient and outpatient medical, surgical, mental
health, and long-term care services. It has 182 operating hospital beds including
2 inpatient medical/surgical units. The facility serves a veteran population of about
112,500 throughout southwest Virginia and is part of Veterans Integrated Service
Network (VISN) 6. The majority of the allegations in this case referenced the operations
of medical/surgical unit 1 (MSU-1).

On June 26, 2013, OIG received a complaint alleging that:

       	 The facility has an excessive incidence of post-operative complications,
          specifically infections in orthopedic surgery cases (knees and hips) and podiatry
          cases (nerve decompression), as well as bowel perforations requiring ostomies1
          in general surgery cases.

       	 A number of outpatients having lung biopsies require chest tube placement and
          hospital admission due to “dropped lungs.”

       	 A number of patients were told, “You have a small spot on your lung, we are
          going to watch it,” and 6 months later, they were diagnosed with Stage IV lung
          cancer.

       	 The administrative officer of the day (AOD) office is staffed after hours with non-
          clinical personnel, and because of this, patients were being inappropriately
          placed on MSU-1, which was unable to meet the patients’ needed levels of care.
          Within minutes to hours of arrival on MSU-1, the patients required transfer to an
          appropriate unit.

       	 MSU-1 is staffed for 20 patients, yet it has a census of 24 at times. Further,
          MSU-1 receives as many as 15 admissions in an 8-hour period.

       	 A dying patient presented to the emergency department (ED) and was
          transferred to MSU-1 rather than remaining in the ED or transferring to the
          Palliative Care Unit. The patient died approximately 30 minutes later.

The complainant did not provide patient names, dates, or details in support of the
allegations.

1
    Ostomy is defined as a surgically created opening from an area inside the body to the outside.


VA Office of Inspector General                                                                           1
                                Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA


                                Scope and Methodology 

We conducted a site visit on September 25–27, 2013. We interviewed the complainant
and reviewed selected patient electronic health records; relevant facility and national
policies, directives, and handbooks; and relevant reports including patient advocate,
incident, VA Surgical Quality Improvement Program, patient safety, time and
attendance, and census gains and losses. In addition, we reviewed quality assurance
documents, committee meeting minutes, staff training records, MSU-1’s nurse staffing
methodology,2 and position descriptions. We also interviewed nursing staff, AODs,
quality management staff, the infection prevention practitioner, and physicians.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




2
  Staffing methodology is a process for determining staffing levels based on an analysis of multiple variables to
include patient or resident needs, environmental and organizational supports, and professional judgment to
recommend safe and effective staffing levels at various points of care.


VA Office of Inspector General                                                                                      2
                             Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA



                                    Inspection Results 

Issue 1: Quality of Care
Post-Operative Complications

We substantiated that the incidence of post-operative infections in orthopedic and
podiatry surgery increased in fiscal year (FY) 2013. We did not substantiate an
increase in bowel perforations that required ostomies.

Infections in Orthopedic and Podiatry Cases. Surgical site infections (SSIs) are one of
the most common post-operative complications. The Centers for Disease Control and
Prevention categorizes SSIs as superficial, deep incisional, or organ/space infections.
SSIs are less likely to occur in clean wounds (surgical incisions that are without signs of
inflammation and do not enter the respiratory, alimentary, and genitourinary tracts) than
contaminated and/or infected wounds. The facility’s cases that were classified as clean
wounds that developed SSIs increased from 0.4 percent in FY 2012 to 1.6 percent in
FY 2013. The majority of SSIs were in orthopedic and podiatry cases.

The facility noted an increase in orthopedic- and podiatry-related SSI cases in FY 2013.
As a result of this increase, the facility developed an action plan to include investigating
the potential source of infections, training operating room (OR) staff using preoperative
skin antiseptic on surgical preparation, changing the suture type used by an orthopedic
surgeon, and minimizing traffic through the OR. The facility also reviewed the
temperature and humidity of the OR, use of personal protective equipment, and
effectiveness of room cleaning. In December 2013, the facility closed the OR3 to install
a new ultraviolet air filter and clean the air ducts and requested funds for a new air
handler. The OR has since reopened. The infection prevention practitioner told us that
the facility had implemented multiple corrective actions; however, it was too early to
determine if the problems have been fully resolved.

Bowel Perforations in General Surgery Cases. A bowel perforation is a hole that
develops through the wall in the small or large intestine, which allows the contents of
the intestine to leak into the abdominal cavity, potentially causing a serious infection
called peritonitis. This condition is a medical emergency, and treatment often involves
surgery to repair the perforation.4 An ostomy, or a surgically created opening for the
discharge of body waste, may be necessary.5 The facility had only one case of bowel
perforation in FY 2012 and no cases in FY 2013. In the identified case, a rectal injury
occurred during a gynecological surgery. The facility notified the patient and family of
the incident post-operatively. The patient did not require an ostomy.




3
  Minor procedures and procedures not requiring incisions continued during the OR closure.
4
  http://www.nlm.nih.gov/medlineplus/ency/article/000235.htm, Accessed December 10, 2013.
5
  http://www.ostomy.org/ostomy_info/whatis.shtml, Accessed April 8, 2014.


VA Office of Inspector General                                                                      3
                              Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA


Lung Biopsy Complications

While we substantiated that some outpatients undergoing lung biopsies developed
“dropped lungs,” which required hospital admission and chest tube placement, we found
that the incidence of these events was within the expected range. A pneumothorax or
“dropped lung” occurs when air leaks into the space between the lungs and chest wall,
causing one or more portion of the lungs to collapse. Pneumothorax is the most
common significant complication associated with percutaneous chest biopsy.
Inadvertently induced pneumothorax is reported to occur in 5–20 percent of patients
after percutaneous lung biopsy.6

The facility’s radiologists performed 34 computed tomography guided lung biopsies
during the first 3 quarters of FY 2013, with 3 (9 percent) resulting in a complication
requiring chest tube placement. Different imaging providers performed each procedure.

Delayed Diagnoses

We did not substantiate the allegation that a number of patients were told, “You have a
small spot on your lung, we are going to watch it,” and 6 months later, they were
diagnosed with Stage IV lung cancer.

Stage IV lung cancer refers to the most advanced form of this disease, where the
cancer has spread beyond the lungs to other areas of the body.7

We reviewed the Tumor Board meeting minutes from August 2012 through July 2013 to
identify patients with lung cancer or a tumor. We found no cases in which patients
developed Stage IV lung cancer within 6 months after the identification of a spot on their
lung. Of the 24 cases reviewed, we identified one patient with a lung nodule8 and a
treatment plan to “watch and wait.” Due to the size of the nodule and the patient’s risk
factors, the patient and provider agreed to defer treatment with close follow-up. The
provider maintained consistent communication with the patient. The patient returned for
follow-up in 6 months, and the nodule remained unchanged.

Issue 2: Admission, Staffing, and Inter-Unit Transfer
AOD and Admission Process

We did not substantiate that the AODs’ non-clinical status resulted in patients being
admitted to unsuitable hospital units. According to facility policy, the AOD is responsible




6
   http://www.ncbi.nlm.nih.gov/pmc/articles/PMC3036417, Accessed October 24, 2013.
 
7
  http://www.cancer.gov/cancertopics/pdq/treatment/non-small-cell-lung/Patient/page2#Keypoint18, Accessed 

January 2, 2014 

8
   A lung nodule is a small mass of tissue found in the lung. 



VA Office of Inspector General                                                                                4
                               Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA


for the coordination and resolution of all administrative issues.9 The ED physician has
the authority to determine the need for hospitalization and the patient’s level of care.10

During our interviews, the AODs and Nursing Officers of the Day corroborated that ED
physicians, in collaboration with medical and surgical teams, decide on patients’
admissions and levels of care. The AODs stated they do not make clinical decisions
related to patient care; rather, they rely on the ED physicians and the Nursing Officers
of the Day for all clinical determinations and functions. We found no evidence that
AODs were making admission and placement decisions without clinical input.

During the course of our review, however, we identified inefficient admission practices
for patients admitted through the ED to a medical unit. The current process is described
below.

The ED physician evaluates the patient and determines the level of care, contacts the
medicine or intensive care team to accept the patient and assure handoff,11 and then
contacts the bed flow coordinator or AOD to determine bed location. The medicine
team has 30 minutes to assess the patient in the ED and change the level of care, if
necessary. If the medicine team does not assess the patient prior to transfer to the
designated unit, the patient could be improperly placed and require transfer to a
different level of care. In addition, the patient can arrive to the unit from the ED without
medicine team orders. The nursing staff is then required to page the medicine team to
obtain orders to begin admitting the patient to the unit.

We reviewed patient movement data for the 2 weeks prior to our site visit,
September 11–25, 2013. While the 2 weeks of movement sheets only noted one
patient admitted from the ED to MSU-1 who then transferred to a higher level of care
the same day, staff we interviewed perceived this condition to occur more frequently. In
the identified case, we found no documented evidence that the medicine team
assessed the patient prior to admission to MSU-1.

Staffing Issues

We substantiated the allegation that the MSU-1 unit was staffed for 20 patients and that
the unit had a census of 24 at times.

In December 2013, the Staffing Methodology Facility Expert Panel12 presented data to
the Executive Leadership Team supporting an increase in MSU-1’s bed capacity from
20 to 24. The Facility Expert Panel further advised that MSU-1 had a high patient
turnover rate and that the facility should monitor the average daily census to determine

9
  Salem VAMC Memorandum 658-136-24, Administrative Officer of the Day (AOD) (Irregular Hours), February

28, 2011.

10
   Salem VAMC Memorandum 658-11-33, Admission Policy, December 6, 2012.

11
   Handoff is communication in a real-time, interactive process of passing patient specific information from one 

caregiver or team to another for the purpose of ensuring the continuity and safety of the patient’s care. 

12
   VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010. The expert panel is 

an advisory group comprised of individuals with in-depth knowledge of evidence-based factors impacting staffing

needs at the point of care.



VA Office of Inspector General                                                                                   5
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA


the need for additional staffing. Initially, staffing remained unchanged as the facility
monitored the average daily census. By the time of our site visit, the nurse manager
had received approval and was in the process of hiring staff. Since our site visit, MSU-1
has hired eight nurses and is currently recruiting for two additional nursing positions.

We could not substantiate the allegation that the unit received as many as
15 admissions in an 8-hour period. The complainant did not provide us with specific
dates, so we reviewed patient movement data for the 2-week period
September 11–25, 2013, to determine if this was a regular occurrence. During this
time, MSU-1 admitted between 4 and 9 patients and discharged or transferred between
2 and 11 patients in a single day. The nursing staff we interviewed reported between
8 and 10 admissions and 8 and 10 discharges a day.

Improper Admission

We did not substantiate the allegation that a dying patient presenting to the ED was
improperly transferred to MSU-1 rather than being allowed to either remain in the ED or
transfer to the Palliative Care Unit. The complainant did not provide us with the
patient’s name but offered a general timeframe when the event occurred. We identified
the case through a review of admissions and deaths during the period suggested.

The patient was an elderly man who was receiving home hospice care. At 7:35 a.m.,
the patient’s wife and sister-in-law escorted him to the ED because of increased
confusion and failure to thrive. ED staff discussed the patient’s wishes with his family.
The patient’s wife signed a Do Not Resuscitate document, stated the patient only
wanted comfort care, and requested all intravenous fluids be held. At approximately
10:00 a.m., ED staff entered a palliative care consult and admitted the patient to MSU-1.
The ED nurse communicated the patient’s status to the MSU-1 nurse.

The patient’s condition continued to deteriorate. At 10:50 a.m., the palliative care social
worker documented that the palliative care staff attempted to obtain a report from the
ED but were told the patient was admitted to MSU-1 with the goal to transfer the patient
to palliative care the following day. MSU-1 provided the patient with comfort care and
medications for pain and anxiety. The patient died at 11:18 a.m.

During our interview, the complainant stated that the patient should have been made
comfortable in the ED or been transferred to the Palliative Care Unit. The complainant
agreed that no harm was done by admitting the patient to MSU-1 and that appropriate
care was provided to the patient and family.

We found that the patient and family received appropriate care in the ED and on
MSU-1. MSU-1 nursing staff we spoke with stated that they had received end-of-life
training and were comfortable caring for dying patients and their families. By nature, an
ED can be chaotic and loud. As it is difficult to predict time of death, the ED staff made
a reasonable decision to admit the patient to MSU-1, which afforded a higher level of
privacy and comfort.




VA Office of Inspector General                                                                     6
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA



                                       Conclusions 

We substantiated that the incidence of post-operative infections in orthopedic and
podiatry surgery increased in FY 2013. The facility has implemented multiple corrective
actions and is monitoring the effectiveness of those actions. We did not substantiate an
increase in bowel perforations that required ostomies in general surgery cases.

We did not substantiate the allegations that an excessive number of outpatients having
lung biopsies required chest tube placements and admissions or that patients were
being told that they had a spot on their lung and 6 months later were told they had
Stage IV lung cancer.

We did not substantiate that the AODs were inappropriately placing patients on MSU-1,
resulting in transfer to a higher level of care within minutes of arrival. However, we
found inefficient admission practices for patients admitted from the ED to medical units,
which may contribute to delays in initiating care.

We substantiated the subject unit had been staffed for 20 patients. In 2013, the unit’s
bed capacity increased from 20 patients to 24 patients. Additional nursing staff has
been hired. Based on a 2-week sample, we did not substantiate that the unit received
up to 15 admissions during an 8-hour shift.

We did not substantiate that a dying patient was inappropriately transferred from the ED
to MSU-1.

                                 Recommendations 

1. We recommended that the Facility Director continue to monitor and address
increases in post-operative infection rates and take appropriate corrective actions when
indicated.

2. We recommended that the Facility Director evaluate the admission process from the
emergency department and monitor inter-unit transfer patterns, and take corrective
actions as indicated.




VA Office of Inspector General                                                                     7
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA
                                                                                         Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


       Date: May 23, 2014

       From: Director, Veterans Integrated Service Network (10N6)

     Subject: D
              	 raft Report—Healthcare Inspection – Quality of Care and
              Staffing Concerns, Salem VA Medical Center, Salem, Virginia

          To: Director, Atlanta Office of Healthcare Inspections (54AT)
                 Director, Management Review Service (VHA 10AR MRS OIG
                 Hotline)

         1. Attached is the action plan developed by the Salem VA Medical
         Center in response to the recommendations received during their
         recent OIG review.

         2. The Facility concurs with the findings and will ensure the corrective
         action plan is implemented.

         3. If you have any questions please contact Lisa Shear, VISN 6 QMO,
         at (919) 956-5541.



               (original signed by:) 

         DANIEL F. HOFFMANN, FACHE





VA Office of Inspector General                                                                     8
                             Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA
                                                                                          Appendix B
                          Facility Director Comments


               Department of
               Veterans Affairs                                      Memorandum


     Date: May 22, 2014

     From: Director, Salem VA Medical Center (658)

  Subject: 	Draft Report—Healthcare Inspection – Quality of Care and Staffing
            Concerns, Salem VA Medical Center, Salem, Virginia

        To: Director, VA Mid-Atlantic Health Care Network (10N6)


       1. Thank you for the opportunity to review the OIG report on the Review
          of Salem VA Medical Center. We concur with the recommendations,
          and will ensure completion as described in the implementation plan.

       2. Please find attached our responses to each recommendation provided
          in the attached plan.

       3. If 	you have any questions regarding the response                          to   the
          recommendations, feel free to call me at (540) 982-2463.


           (original signed by:) 

        MIGUEL H. LAPUZ, MD, MBA 





VA Office of Inspector General                                                                      9
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Facility Director continue to monitor
and address increases in post-operative infection rates and take appropriate corrective
actions when indicated.

Concur

Target date for completion: Completed

Facility response: Data for post-operative wound infections is collected and analyzed
by the Infection Control Preventionist to determine if there are trends and if results are
within acceptable ranges. Mitigation efforts are initiated as issues are identified. This
data is presented quarterly to the Surgical and Operative Invasive Procedures
Committee for review and evaluation. Reporting goes forward to the Medical Executive
Board for additional review and oversight.

Recommendation 2. We recommended that the Facility Director evaluate the
admission process from the emergency department and monitor inter-unit transfer
patterns, and take corrective actions as indicated.

Concur

Target date for completion: August 29, 2014

Facility response: Facility leadership is reviewing the admissions policy to determine if
there is opportunity to enhance processes for clarity and function. In addition, two
monitors have been developed to review ordering and inter-unit transfer patterns:
(1) the presence of orders placed for patients admitted to acute Medicine from the
Emergency Department before arriving on the units, and (2) the number of patients
admitted to acute Medicine units who are transferred to a different level of care within
one hour of admission. Data collection and analysis will be performed with reports to
the Medical Executive Board. Corrective actions will be taken as necessary.




VA Office of Inspector General                                                                    10
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA
                                                                                         Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Joanne Wasko, LCSW, Team Leader
                         Victoria Coates, LICSW, MBA
                         Sheyla Desir, MSN, RN
                         Alan Mallinger, MD

                         Toni Woodard, BS 





VA Office of Inspector General                                                                    11
                            Quality of Care and Staffing Concerns, Salem VA Medical Center, Salem, VA
                                                                                         Appendix D

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid-Atlantic Health Care Network (10N6)
Director, Salem VA Medical Center (658/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tim Kaine, Mark R. Warner
U.S. House of Representatives: Bob Goodlatte, Morgan Griffith, Robert Hurt



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    12
